Washington, D.C. 20530

March 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Benjamin Edward Henry Bradley v. United States of America,
S.Ct. No. 20-7198
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 11, 2021.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on April 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 10, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7198
BRADLEY, BENJAMIN EDWARD HENRY
USA

MELISSA MARTIN SALINAS
FEDERAL APPELLATE LITIGATION CLINIC
801 MONROE STREET
363 LEGAL RESEARCH BUILDING
ANN ARBOR, MI 48109
734-763-4341
SALINASM@UMICH.EDU

